Audit of Processing of Textual Records



     OIG Audit Report No. 13-14




         September 18, 2013

Table of Contents



Executive Summary ...................................................................................... 3


Background.................................................................................................... 5


Objectives, Scope, Methodology .................................................................. 8


Audit Results ................................................................................................. 9


Appendix A – Acronyms and Abbreviations............................................ 20


Appendix B – Management’s Response to the Report ............................ 21


Appendix C – Report Distribution List .................................................... 22

                                                                               OIG Audit Report No. 13-14


Executive Summary

The National Archives and Records Administration (NARA) Office of Inspector General (OIG)
performed an audit of NARA’s processing of textual records. We assessed the process of
making archival records available to the public and determined whether processing of textual
records continues to be a material weakness 1. Processing is the means by which NARA achieves
intellectual and physical control of records with the ultimate goal of properly describing them
within NARA’s online catalog of nationwide holdings 2.

A 2007 OIG audit (see OIG Audit Report 07-06 of February 28, 2007) of processing revealed
NARA was constrained in its ability to provide efficient and effective access to its holdings and
was not adequately meeting the mission of ensuring public access to records as soon as legally
possible. In fiscal year (FY) 2008 NARA developed the capability to measure processing
progress for archival holdings. At that time the backlog of unprocessed records was
approximately 70% of NARA’s textual holdings. In FY 2010 NARA recognized textual records
processing as a material weakness.

As of the end of FY 2012, NARA’s processing backlog was approximately 40%. Since
processing measures were put into place in 2008, NARA has considerably reduced the backlog
as a percentage of total textual holdings. This was done by creating processing priorities, hiring
additional resources, and implementing processing work plans. Although NARA has made
significant strides in reducing the processing backlog over the last four years, additional effort is
still needed to reduce the material weakness and strengthen NARA’s processing program.
Specifically our audit disclosed the following weaknesses.

    •	 The strategic direction of processing needs to be adjusted to include an overall agency
       policy and processing definition, adequate backlog reduction plans for Research Services
       field locations, increased processing progress in the presidential libraries, improved
       processing staff utilization, and a realistic and attainable processing goal.
    •	 The Office of Presidential Libraries lacks a performance measure for tracking the 

       processing of electronic records.

    •	 Inaccurate processing data has been reported in the Performance Measurement Reporting
       System.
    •	 Documented processing procedures either did not exist or were outdated.


1
  Electronic records were generally excluded from the scope of this audit. However, the Office of Presidential
Libraries made us aware of a large volume of unprocessed electronic records and we performed a limited review of
these records.
2
  The Archival Research Catalog (ARC) is the online catalog for NARA's nationwide holdings. ARC allows basic
and advanced searching of NARA’s holdings.
                                                Page 3
                             National Archives and Records Administration
                                                                     OIG Audit Report No. 13-14


As a result, a processing backlog persists placing records at risk, increasing the time for
reference requests, impairing the agency's ability to describe the records online, and in some
cases may be limiting the access to records.

We made eight recommendations to address our findings and strengthen the NARA Processing
Program.




                                            Page 4
                         National Archives and Records Administration
                                                                       OIG Audit Report No. 13-14


Background

The National Archives and Records Administration’s (NARA) second strategic goal is to
preserve and process records to ensure access by the public as soon as legally possible 3.
Processing involves all the steps needed to open a record to the public. It includes establishing
basic intellectual control, flagging records that have privacy implications or that contain
classified national security information, providing enhanced descriptions of the records content
as well as the context in which the records were created, and performing initial preservation so
that the records may be served to the public. The final step in processing is the completion of an
approved series description within NARA’s online nationwide holding catalog, the Archival
Research Catalog (ARC), to facilitate access to those records by researchers.

Two NARA offices have programmatic responsibility for textual processing: Research Services
(R), which consists of Archives I, Archives II, and 13 locations in the field; and Legislative
Archives, Presidential Libraries, and Museum Services (L).

Prior Audit
The OIG conducted an audit of textual processing in 2007 (OIG Audit Report No. 07-06, dated
February 28, 2007). That audit revealed NARA was constrained in its ability to provide efficient
and effective access to its holdings and was not adequately meeting the mission of ensuring
public access to records as soon as legally possible. Specifically the audit disclosed: (1)
NARA’s budget and staffing were inadequate to meet processing needs; (2) the impact of
Executive Order 12958 required staff to oversee mandatory declassification efforts and the
Presidential Records Act made presidential records subject to the Freedom of Information Act
(both of these regulations pulled staff away from performing systematic processing which
exacerbated the backlogs in the presidential libraries); and (3) NARA lacked a mechanism for
accurately tracking processing workloads and backlogs.

Processing Backlog
As of the end of FY 2012 the textual records processing backlog was approximately 40%. This
backlog is attributed to an increase in accessioned records, inadequate staffing, and the detailed
review required of presidential records. Since processing measures have been put into place in
2008, the backlog has declined from 70% of textual holdings to 40% as noted by the chart on the
next page.




3
    This is goal 2 as defined in NARA’s Strategic Plan 2006-2016.
                                                  Page 5
                               National Archives and Records Administration
                                                                                    OIG Audit Report No. 13-14



                       Backlog of Unprocessed Textual Records
                                   for all of NARA
          80%

          60%

          40%
                                                                                             Processing Backlog
          20%

            0%
                   FY 2008      FY 2009      FY 2010      FY 2011     FY 2012




Backlog reduction efforts
Since our last audit in 2007 management put controls in place and initiated the following projects
to help reduce the processing backlog.

Processing plans
In 2008 the agency developed the metric for the goal of having 95% of holdings processed by
FY 2016. In response to this, the former Office of Regional Records Services required each
regional archive to create a five year plan to reach the agency goal by 2013. These plans were to
establish staffing assignments, priorities, and measurable milestones.

Record Description
A working group was established to examine all aspects of the description process necessary to
develop a strategy for meeting the FY 2012 description goal. The recommendation was to base
description on the four-level concept 4. Although description is only one element of processing,
this initiative helps make processing more efficient.




4
    The four levels of processing were defined as :
                •	 Preliminary Description – ARCIS and/or agency supplied information.
                •	 Minimal Description – mandatory elements as defined by the Lifecycle Data Requirements Guide
                     as well as an arrangement statement and a concise scope and content note if the title is not
                     sufficient to describe the records.
                •	 Enhanced Description – information that is not essential but is beneficial, i.e., file or container
                     lists.
                •	 In-Depth Research Guides – dynamic online guides that relate records with common themes or
                     characteristics across record groups or physical locations.


                                                   Page 6
                                National Archives and Records Administration
                                                                     OIG Audit Report No. 13-14


Creating various levels of processing
As part of the FY 2012 material weakness action plan the following levels of processing were
defined.

1) Unprocessed: All elements required to accession records, and in most instances, complete a
   preliminary description and preliminary evaluation of access restrictions is completed.
2) Minimally Processed: All elements required to complete a minimal series description.
3) Fully Processed: All elements required to complete a minimally or in-depth guide to the
   records.

Creating these various levels of processing enables NARA to process some series more
efficiently in order to reduce the backlog.

Cost benefit analysis
Research Services plans to create a model showing the relationships of variables in order to
calculate the cost/benefit of serving processed versus unprocessed records. The model will be
used by staff to determine a processing plan based on the potential results in terms of resource
cost to NARA and impact on researchers. This analysis should aid in providing records to the
public as quickly as possible. This effort is still ongoing.

Fast track processing of presidential records
The Presidential Libraries have identified series of records which are eligible for fast track
processing. These series of records are not likely to invoke Presidential Records Act or Freedom
of Information Act (FOIA) restrictions and therefore can be screened and cleared by the
incumbent and former president quickly.




                                            Page 7
                         National Archives and Records Administration
                                                                         OIG Audit Report No. 13-14


Objectives, Scope, Methodology

The objective of the audit was to evaluate and assess the process of making archival records
available to the public in a timely manner. In addition, we assessed whether the processing of
textual records continues to be a material weakness. All audit work was performed at Archives
II in College Park, MD.

We examined applicable laws, regulations, and NARA guidance including: (a) Revisions to the
Office of Management and Budget (OMB) Circular A-123, Management's Responsibility for
Internal Control; (b) Government Accountability Office (GAO), Standards for Internal Control
in the Federal Government; (c) OMB Circular A-11, Preparation, Submission, and Execution of
the Budget ;(d) The Presidential Records Act of 1978; (e) Presidential Libraries Manual 1401;
and (f) Research Services and Office of Presidential Libraries procedural manuals.

We held discussions with NARA employees and officials within Research Services (R),
Legislative Archives, Presidential Libraries, and Museum Services (L), and the Performance and
Accountability Office (CP). We analyzed processing statistics and trends from FY 2008 to FY
2012. We evaluated the adequacy of processing backlog reduction plans and annual work plans.
We assessed the adequacy of material weakness action plans and reviewed planned processing
initiatives. We also reviewed quarterly performance narratives. Finally, we reviewed staffing
assigned to processing at each location and processing policies and procedures.

Our audit work was performed between March 2012 and February 2013 5. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.




5
    This report was delayed as a result of resource constraints.
                                                    Page 8
                                 National Archives and Records Administration
                                                                                   OIG Audit Report No. 13-14


Audit Results

1. NARA does not have a unified agency strategy for addressing
   processing.
The strategic direction of NARA’s processing program needs to be adjusted to ensure the
continual reduction of the current backlog. While there is an agency wide processing goal, each
Research Services field location and each Presidential Library has operated in silos when
determining how to decrease their individual backlog and to meet the overall agency goal and no
one office currently provides oversight for the processing program. Major challenges affecting
NARA’s ability to reduce the backlog continues to center around maximizing resources and
processing of presidential records. Without a NARA-wide approach to further reduce the current
backlog, NARA may be hindering its ability to process records timely to ensure access by the
public as soon as legally possible. The following observations need to be addressed to
strengthen the processing program:

         •	 There is no one overall definition of and no formal agency policy for processing.
         •	 Research Services field locations have no plans or inadequate plans for reducing their
            processing backlogs.
         •	 Unprocessed records (or inadequately processed records) are being served to
            researchers which could contain restricted information.
         •	 Presidential libraries have made minimal progress in processing their backlog.
         •	 Staffing is not adequate within some archives to reduce the current backlog.
         •	 NARA’s current strategic processing goal is not attainable.


Lack of processing definition and agency policy for processing
There is no one overall agency definition for processing. We interviewed several Research
Services (R) field locations and libraries in the Office of Presidential Libraries (LP), and some
defined the steps required to be performed before a record is considered processed differently
from others. There was also no agreement between them on whether basic preservation was part
of processing. Although each definition was similar or contained certain steps, management was
not all in agreement on what procedures actually constitute processing of records at NARA 6. For
example LP did not require processed records to be described in ARC before the record is
considered processed. In the Performance Measurement and Reporting System (PMRS) metric

6
  Processing at the Presidential Libraries differs from processing in R due to the requirements in the Presidential
Records Act. This Act entitles the former President and the incumbent to exercise executive privilege in
determining what records can be released. This requires NARA to conduct a page-by-page review of Presidential
records.
                                                 Page 9
                              National Archives and Records Administration
                                                                     OIG Audit Report No. 13-14


document, the definition of processed does not include describing the record in ARC for LP.
However, NARA’s Performance and Accountability report states processing involves a series of
steps including describing the record in NARA’s online catalog. In addition, all other offices
must have an ARC entry completed before a record is considered processed. We interviewed
officials in the Performance and Accountability office and they believed the PMRS metric
document for LP was supposed to include an ARC description. Therefore there is confusion and
a lack of consistency within the agency regarding what actions should be included in processing
of records.

In addition, there is no formal agency policy on processing. Although the agency reported under
one processing goal and metric, an overall agency policy guiding processing decisions has never
been created. According to GAO’s Standards for Internal Control in the Federal Government,
management is responsible for developing the detailed policies to fit their agency’s operations.
There is a need for a NARA-wide policy and definition for processing that will help facilitate
consistency among offices and increase clarity concerning what elements are included in
processing which drives the agency goals. Management in R agreed that an agency-wide
processing framework needed to be established.

Non-existent or inadequate processing plans for some regional archives
Some Research Services field locations did not have a plan in place for reducing their processing
backlog or the plan in place was not adequate. Since the field locations had a smaller processing
backlog compared to Research Services Washington, DC (R-DC) management had not given
proper attention to reducing the backlogs in field locations.

NARA’s Research Services has 13 field locations loosely organized regionally with a Western
region (RW), Midwest region (RM), Eastern region (RE), and St Louis (RL). In 2008 the agency
developed the metric for the goal to have 95% of holding processed by FY 2016. In response to
this, the former Office of Regional Record Services (now in part within Research Services)
required each then regional archive to create a five year processing plan to reach the agency goal
by FY 2013. These plans were supposed to establish staffing assignments, priorities, and
measurable milestones. We found that all of them failed to maintain a plan to reduce their
backlogs and some plans were not adequate because they did not reflect current assignments,
milestones, and changes that occurred. Research Services management officials agreed
processing plans needed to be created to help reduce the current backlog.

As shown in the table below, the San Bruno, St Louis, and Chicago field locations have large
backlogs but did not have a backlog reduction plan in place. In addition, the backlog reduction
plans for the RE field locations were not adequate to reflect current assignments, milestones, and
document how backlogs would be reduced.


                                            Page 10
                         National Archives and Records Administration
                                                                                    OIG Audit Report No. 13-14

                            Table 1: Processing at Research Services Field Locations
                                                         Percentage Processed        Backlog as             Backlog
        Re gion                Office           2008    2009     2010      2011 2012 of FY2012           Reduction Plan
                          Regions Total       19.08% 42.70% 54.13% 65.85% 70.08%      29.92%
                      Western Region Total 13.35% 21.73% 37.74% 44.01% 53.31%         46.69%
                            Anchorage         25.80% 43.99% 47.76% 49.17% 62.37%      37.63%            Ye s
    Western Region           Rive rside       17.81%   0.00%    41.48% 30.36% 37.98%  62.02%            Ye s
                            San Bruno          3.91%  12.48% 21.67% 28.25% 40.75%     59.25%            No
                              Se attle        16.84% 26.14% 51.29% 72.67% 74.72%      25.28%            Ye s
         St Louis             St Louis        100.00% 25.65% 31.10% 35.01% 34.55%     65.45%            No
                      Mid-We st Re gion Total 20.69% 55.94% 60.65% 73.40% 74.40%      25.60%
                              Chicago          6.25%   8.17%    41.02% 42.71% 37.54%  62.46%            No
    Mid-We st Re gion         Denver          21.05% 100.00% 100.00% 100.00% 100.00%   0.00%            No backlog
                            Fort Worth        32.99% 81.44% 99.20% 98.99% 99.53%       0.47%            No backlog
                            Kansas City        0.00%  25.64% 42.31% 58.65% 77.65%     22.35%            Ye s
                       Easte rn Re gion Total 21.35% 39.13% 57.06% 69.02% 74.12%      25.88%
                           Philade lphia      31.66% 43.41% 66.64% 71.68% 72.12%      27.88%            Ye s*
     Eastern Region           Atlanta         40.00% 44.73% 53.38% 60.42% 69.62%      30.38%            Ye s*
                             Ne w York         1.54%  45.56% 60.05% 74.62% 77.65%     22.35%            Ye s*
                               Boston          2.00%  21.80% 46.77% 77.60% 84.50%     15.50%            Ye s*
*Processing plans were not detailed to include how the backlog would be worked through.

Management has not provided effective oversight for the Research Services field locations to
ensure adequate backlog reduction plans existed. This occurred because management focused
backlog reduction efforts on Archives II which had the largest backlog and management did not
believe increased attention was needed in the field locations. Without increased oversight on
reducing the backlogs in Research Services field locations, NARA may not adequately meet its
mission of providing timely access to records as soon as legally possible.

Serving unprocessed records to the public
In an effort to meet NARA’s mission of providing access to records as soon as possible, NARA
has been serving unprocessed records to researchers. Providing access to unprocessed records
could result in the unintentional disclosure of restricted data or personally identifiable
information (PII). PII includes social security numbers, medical and personnel files, financial
information, investigative files, and other restricted information. Management officials at the St
Louis field location stated the first priority is to provide access to the records even if they are not
processed. However, management stated they try to make every effort to ensure those records do
not need any immediate preservation work before serving them. The practice of serving
unprocessed records occurs throughout Research Services, 7 but is more prevalent in field
locations with a large amount of reference requests like St Louis and RD-DC. If the current
processing backlog does not steadily decrease, NARA will have to continue to make decisions
about serving unprocessed records in order to grant access to the public. NARA is in the process
of conducting a study to evaluate the costs and benefits of serving processed versus unprocessed
records.
7
  According to an official in the Presidential Materials Division, presidential libraries do not serve unprocessed
records.
                                                  Page 11
                               National Archives and Records Administration
                                                                                   OIG Audit Report No. 13-14



Presidential libraries have made minimal progress in reducing processing backlogs
The processing backlog in LP has remained stagnant since measures were established in 2008 (see
Table 2 below). This is due to presidential library staff continually responding to Freedom of
Information Act (FOIA) and other special access requests which have limited the performance of
systematic processing. This coupled with the page by page review required for most of their records
have essentially halted any progress in reducing their backlog.

                                        Table 2: Presidential Library Processing
                                                       FY2008      FY2009      FY2010      FY2011       FY2012
    Library % Proc essed                               42.15%      42.62%      43.52%      43.11%       45.71%
    Volume of Rec ords (cu.ft.)                       256,707      284,470     287,168    293,505      293,216
    Volume of Proces s ed Records (c u.ft.)           108,224      121,259     124,981    126,550      134,050
    Backlog of Unprocess ed Records                   148,483      163,211     162,186    166,955      159,166


We interviewed officials from each library and their projections for getting through the processing
backlog ranged from five years to decades. At the current pace NARA may never get through the
processing backlog if no changes are made to the presidential libraries processing program. Also not
included in the presidential library’s backlog is a large volume of electronic records that will
greatly contribute to the amount of processing work to be done (see issue 2). The Executive for
Legislative Archives, Presidential Libraries, and Museum Services stated staffing declines in the
libraries have made it difficult to make progress in processing records.

Staffing may not be adequate within certain offices to reduce the current processing backlog
Staffing utilization within RD-DC is not adequately aligned to reduce the current backlog. RD­
DC is comprised of Archives I in Washington, DC and Archives II in College Park, MD.
Archives II accessions the largest amount of records and consequently has the largest backlog of
unprocessed records in cubic feet; while Archives I has a minimal backlog. A total of 60 staff
members are assigned to describe and process records within these two locations. However, the
number of staff assigned to description and processing in RD-DC has never reached the
minimum projection of 104, which was deemed necessary in the 2007 NWC Management Report
on the Processing Initiative 8 to meet the 2016 agency goal of 95% processed. In addition,
staffing utilization between the archives in RD-DC is not aligned strategically to make the best
use of resources needed to reduce the larger backlog at Archives II. According to management
in RD-DC, Archives I is overstaffed and some staff have had to be assigned to work in areas
other than processing. The table below shows that staffing is not aligned to where the larger
backlog resides. Archives II has three times the volume of records than Archives I but has only


8
  NWC was the former Office of Records Services- Washington DC. This office is now part of Research Services.
The Management Report on the Processing Initiative proposed changes to the processing function within that office
in order to assist the agency in meeting processing goals.
                                                     Page 12
                                  National Archives and Records Administration
                                                                      OIG Audit Report No. 13-14


twice as many staff assigned to processing. The Executive for Research Services agreed that
staffing changes need to occur within Archives I and Archives II.


                     Table 3: FY 2012 Volume of Records and Staff within RD-DC
                                        Volume of
                     Volume of                                                             Staff
                                       Unprocessed        Percentage        Backlog
     Office       Records (in cubic                                                     Assigned to
                                     Records (in cubic    Processed       Percentage
                       feet)                                                            Processing
                                           feet)
   Archives I         570,906             17,243             97%             3%             19
  Archives II        1,677,903            701,168            58%            42%             41



Another challenge affecting both RD-DC and the Research Services field locations is staff splits
their time between processing, emergency, and special projects which has hindered the reduction
of the current processing backlog. Specifically in RD-DC staff members have been diverted
from processing to work in the following areas listed below.
       1.	 Annually approximately five full time equivalents (FTE) have participated in the
           former NW Archivist Development Program.
       2.	 In FY 2012 four FTE’s were diverted from processing to complete unplanned
           assignments.
       3.	 In the past three years, a total of four staff members have been transferred from
           description and processing to fill critical vacancies in other RD-DC units.
Without proper staffing, NARA’s ability to complete processing work to continually reduce the
backlog and provide proper records access to the public is limited.

NARA’s current strategic processing goal is unattainable
NARA’s Strategic Plan includes a performance target related to processing records to ensure
access by the public as soon as legally possible. According to strategic goal 2.2, by 2016 NARA
is to have 95% of its holdings processed to the point where researchers can have efficient access
to them. In FY 2010, for the first time since targets were established, NARA did not reach its
processing goal of having 50% of holdings processed. NARA also did not meet the 2011 goal of
being 55% processed. Although the agency met the revised 2012 goal of being 60% processed,
it is unrealistic, given current staffing constraints, that the 2016 strategic goal of 95% processed
will be achieved.




                                             Page 13
                          National Archives and Records Administration
                                                                             OIG Audit Report No. 13-14

                                       Table 4: Processing Performance Data
           Performance Data                   FY 2008       FY 2009     FY 2010   FY 2011    FY 2012
Performance target for percent of                30           40          50        55         60
archival holdings that have been
processed to the point where researchers
can have efficient access to them.
Percent of archival holdings that have           30           41          47        53         60
been processed to the point where
researchers can have efficient access to
them.



Several challenges have hindered NARA from reaching its goals. These challenges include:

    •	 more series remain to be processed than in prior years,
    •	 information received from agencies related to records is typically inaccurate and

       incomplete, and have access issues that were not properly identified,

    •	 records accessioned in recent years often contain a mixture of permanent, temporary, non
       record and duplicative materials, and
    •	 staff split their time between processing and emergency and special projects.

All of these factors lengthen the time needed to process records. Management in R agreed the
current goal will not be reached by FY 2016.

The Office of Performance and Accountability (CP) created a processing calculator to assist in
determining ways to reduce the processing backlog. The tool allows for changes in staffing and
productivity in order to determine how those numbers affect the processing backlog. It also
gives a view into whether the strategic goals for processing are realistic. Assuming the same
amount of resources and an average volume of new accessions as of the end of FY 2012, the
processing calculator predicted it would take NARA until FY 2020 to work through the current
backlog. The calculator also predicts that by FY 2016 NARA would only be 85% processed.
Therefore the FY 2016 goal needs to be reassessed and new goals should be set to reflect the
current status of archival processing and available resources.


Recommendation 1
The Archivist should ensure an analysis is conducted of the organizational structure and
responsibilities of each office involved in processing. This should include a determination
whether the processing strategy can be effectively implemented with a decentralized structure, or
if one NARA office should have authority over the entire Processing Program.



                                               Page 14
                            National Archives and Records Administration
                                                                    OIG Audit Report No. 13-14


Recommendation 2
The Executive of Research Services should:

   a)	 Coordinate with the Executive for Legislative Archives, Presidential Libraries, and
       Museums to develop a processing policy and agency definition. This policy and
       definition should highlight the differences between federal records processing and
       processing of presidential records.
   b)	 Ensure the San Bruno, St. Louis, and Chicago field locations have a current processing
       backlog reduction plan. These plans should be developed yearly and updated
       periodically during the year as necessary. Each plan should include strategies on how the
       backlog will be reduced, define milestones, and outline staffing assignments.
   c)	 Ensure the cost benefit analysis study on serving unprocessed records is completed.
       Ensure it outlines the risks and benefits of serving unprocessed records with appropriate
       strategy that is consistent across the agency.
   d)	 Conduct a workload analysis to determine if resource allocation between AI and AII is
       appropriate. If not, make staffing changes to better utilize staff where the greater need
       resides. Also assess workloads at field locations and make adjustments if necessary.


Recommendation 3
The Executive for Legislative Archives, Presidential Libraries, and Museums should:

   a)	 Analyze the backlogs at the pre-PRA libraries and create processing plans for reducing
       the backlogs at these libraries on a more accelerated basis.
   b) Assess if there are additional ways to accelerate processing at the PRA libraries.
   c) Work with the Performance and Accountability Office to update the PMRS metadata to
       require an ARC entry prior to considering presidential records processed.


Recommendation 4
The Executive for Research Services and the Executive for Legislative Archives, Presidential
Libraries, and Museums should work with the Performance and Accountability Office to reassess
current processing goals and make changes to the goals to reflect the current state of processing
and ensure the goals are realistic and attainable.

Management Response
Management concurred with the recommendations.




                                            Page 15
                         National Archives and Records Administration
                                                                                  OIG Audit Report No. 13-14


2. Libraries currently have a large volume of electronic records that
   are not captured in any backlog calculation and there is no
   measure in place to track them.

    The Office of Presidential Libraries (LP) lacks a performance measure for accurately
    tracking processing workloads and backlogs for electronic records. With the increasing
    amount of electronic presidential records, management is just beginning to realize the large
    amount of work needed to process them and therefore the need to track and measure the
    related workload. NARA’s second strategic goal is to process records to ensure access as
    soon as legally possible. Without appropriate tracking or measurement of these electronic
    records, NARA cannot fully assess progress against this goal. In addition, NARA does not
    have any visibility into the LP’s electronic records backlog and therefore cannot adequately
    plan how to reduce the current presidential libraries backlog.

    LP began receiving electronic records with President Ronald Reagan’s administration and the
    volume has grown exponentially with the subsequent presidents. These electronic records
    are not currently being tracked to determine how many have been processed or remain
    unprocessed. Since they are subject to the Presidential Records Act, these records require
    careful review before release and hence will take longer to process. According to
    management over 95% of these records remain unprocessed.

                      Table 5: Presidential Libraries Electronic Archival Holdings as of 2012
                                        Library             Logical Data Records 9
                              Reagan                                        2,962,661
                              Bush                                          8,853,824
                              Clinton                                      23,491,555
                              GW Bush                                     260,864,125
                              Presidential Library
                              Materials Division                           10,472,917
                              Total                                       306,645,082


    As the trend suggests in table 5 above, the volume of electronic records will continue to
    increase with each subsequent administration. As such, NARA will have to determine how
    to capture these records in the current backlog and align staffing and other resources to
    ensure progress can be made in reducing the backlog. Without proper tracking of these
    electronic records NARA cannot demonstrate the library’s progress in making these records

9
  These electronic records reside in the Presidential Electronic Records Library system and in the Executive Office
of the President (EOP) instance of Electronic Records Archive system (ERA). The formats include HTML, text
files, digital image files, emails, office automation products (Microsoft Word, Excel, Access, PowerPoint, etc.),
Adobe Acrobat portable document format files (PDF), extensible markup language files (XML), and raw camera
files.
                                                 Page 16
                              National Archives and Records Administration
                                                                     OIG Audit Report No. 13-14


   available nor can NARA determine the true staffing needed to reduce the backlog at the
   presidential libraries.

Recommendation 5
The Executive for Legislative Archives, Presidential Libraries, and Museum Services should:

   a) Work with the Performance and Accountability Office to develop a performance measure
      for tracking the processing of electronic presidential records.
   b) Determine the true backlog of electronic presidential records and determine if additional
      resources are needed and can be obtained to handle the increased workload.

Management Response
Management concurred with the recommendation.




3. Processing statistics were not accurately reported in PMRS.

The Nixon library and the St Louis field location have reported inaccurate processing data in the
Performance Measurement and Reporting System (PMRS). This occurred because records were
transferred to them that were already processed and they had erroneously omitted the records
from the processing data reported into PMRS. Each office certifies quarterly that the data
contained within PMRS is accurate. According to OMB Circular A-11, federal agencies are
required to assess the completeness and reliability of performance data reported. Without
accurate data going in PMRS, NARA cannot correctly report on how the agency is performing
relative to its strategic goals. In addition, NARA could potentially report inaccurate data to
Congress.

PMRS is the official source for statistical management information at NARA. In particular, it
reports how NARA is doing relative to the numeric goals in NARA's Strategic Plan and the
various annual performance plans. Those results form the basis for reports to Congress each
year. Within PMRS, sub goal 2.2.1 contains the statistical data for textual holdings processed for
NARA. Data is captured into PMRS in two ways.

               1.	 For those archives using the Holdings Management System (HMS) a query is
                   run that captures all processed and unprocessed data for the reporting month.
                   The file is read by PMRS.
               2.	 The presidential libraries and those Research Services field locations that do
                   not use HMS log into a web application and manually update it with the
                   amount processed for the reporting month.

                                            Page 17
                         National Archives and Records Administration
                                                                       OIG Audit Report No. 13-14


Both the Nixon library and the St. Louis field location manually provided their data to PMRS.
Although we only noted these two incidents there could potentially be more inaccuracies in the
data being reported to PMRS.

Recommendation 6
The Executive for Legislative Archives, Presidential Libraries, and Museums and the Executive
for Research Services should ensure a review is performed to validate the accuracy of processing
data supplied to the Performance and Accountability Office.


Management Response
Management concurred with the recommendation.



4. Documented processing procedures did not exist or were not
   updated for some archives and libraries performing processing.

Documented processing procedures were either not formalized or not updated for some of the
Research Services field locations and presidential libraries. Procedures did not exist or were not
updated because those field locations and libraries used the knowledge of many seasoned
employees to explain procedures and updating older procedures was not a priority. GAO’s
Standards for Internal Control in the Federal Government, states management is responsible for
developing the detailed policies, procedures, and practices to fit their agency’s operations and to
ensure that they are built into and an integral part of operations. Information should be recorded
and communicated to management and others within the entity, who need it, and in a form and
within a time frame, which enables them to carry out their internal control and other
responsibilities. Lack of current documented procedures could result in inconsistent process
operations, key person dependencies, and overall process inefficiency. For example, there was
confusion over the definition of processing and various archives and libraries used various
definitions for processing records.

During the course of our audit, we were unable to obtain written procedures for some of the
Research Services field locations and presidential libraries because they did not exist. In
addition, some presidential library procedures we received were outdated. As indicated in the
table below, we were unable to obtain processing procedures for 15 Research Services field
locations and presidential libraries, and three presidential libraries had procedures that were five
or more years old.




                                             Page 18
                          National Archives and Records Administration
                                                                        OIG Audit Report No. 13-14

                              Table 6: Processing Procedures by Office
Office                        Procedure Manual Exists                 Last Procedure Update
Archives I & II               Yes                                     2010
Anchorage                     No
Riverside                     No
San Bruno                     No
Seattle                       No
Chicago                       No
Denver                        No
Fort Worth                    Yes                                     2009
Kansas City                   Yes                                     2012
St Louis                      No
Atlanta                       No
Boston                        No
New York                      No
Philadelphia                  No
Hoover                        No
Roosevelt                     No
Truman                        No
Eisenhower                    Yes                                     1971
Kennedy                       Yes                                     2013
Johnson                       Yes                                     1975
Nixon                         No (currently under draft)
Ford                          Yes                                     2012
Carter                        Yes                                     Main procedures (Outdated,
                                                                      however we could not determine the
                                                                      date that these procedures were
                                                                      updated ) Addendums (2008)
Reagan                        Yes                                     Various procedures were updated
                                                                      between 2004-2012
Bush                          Yes                                     2011
Clinton                       Yes                                     2011
G.W. Bush                     Yes                                     2012



Recommendation 7
The Executive of Research Services should ensure procedures for all field locations are
documented. Review existing procedures and update as necessary.

Recommendation 8
The Executive for Legislative Archives, Presidential Libraries, and Museums should ensure

procedures for all presidential libraries are documented. Review existing procedures and update

as necessary.



Management Response

Management concurred with the recommendations.


                                            Page 19
                         National Archives and Records Administration
                                                        OIG Audit Report No. 13-14


Appendix A – Acronyms and Abbreviations

ARC         Archival Research Catalog
ARCIS       Archives and Records Centers Information System
CP          Performance and Accountability Office
FOIA        Freedom of Information Act
FTE         Full time equivalent
FY          Fiscal Year
GAO         Government Accountability Office
HMS         Holdings Management System
L           Legislative Archives, Presidential Libraries and Museum Services
LP          Office of Presidential Libraries
NARA        National Archives and Records Administration
OIG         Office of Inspector General
OMB         Office of Management and Budget
PII         Personally Identifiable Information
PMRS        Performance Measurement Reporting System
R           Research Services
RD-DC       Research Services Washington DC
RE          Archival Operations- East
RL          Archival Operations- St Louis
RM          Archival Operations- Midwest
RW          Archival Operations- West




                                 Page 20
              National Archives and Records Administration
                                                                                  OIG Audit Report No. 13-14 



Appendix B – Management’s Response to the Report





       ~

        NATIONAL
       ARCHIVES



                                  SEP 0 6 ·2013
            Date:
            To:               James Springs, Acting Inspector General
            From:             David S. Ferriera, Archivist of the United States
            Subject:          OIG Revised Draft Audit 13-14, Audit of Processing of Textual Records




      Thank you for the opportunity to provide comments on this draft report. We appreciate
      your willingness to meet and clarify language in the report.

      We concur with all eight recommendations in this audit, and we will address them further
      in our action plan.

      If you have any questions or need additional information on these comments, please
      contact Mary Drak by phone at 301-837-1668 or via email at mary.drak@nara.gov.


    ~}1~
      DAVID S. FERRIERO
      Archivist of the United States




       NATiONAl ARCH I V F.$ a11d
       RECO R-DS 1\0MIN ISTRAT ION

           8601 •\DI:U'II I 1\0AD
      lOI.LEG ( PARK. M D 20740·600 1
             www.arth il'rs.gov




                                               Page 21

                            National Archives and Records Administration
                                                                  OIG Audit Report No. 13-14



Appendix C – Report Distribution List
Archivist of the United States (N)

Deputy Archivist of the United States (ND)

Chief Operating Officer (C)

Executive of Legislative Archives, Presidential Libraries and Museum Services (L)

Executive of Research Services (R)

Director, Performance and Accountability (CP)

Management Control Liaison, Performance and Accountability (CP)





                                           Page 22
                        National Archives and Records Administration
